                

                

                     U.S. ENVIRONMENTAL PROTECTION AGENCY 

                     OFFICE OF INSPECTOR GENERAL 




                     Fiscal Year 2013
                     Federal Information Security
                     Management Act Report

                     Status of EPA’s Computer
                     Security Program

                     Report No. 14-P-0033               November 26, 2013




Scan this mobile
code to learn more
about the EPA OIG.
Report Contributors:                                Rudolph M. Brevard
                                                    Cheryl Reid
                                                    Michael Goode
                                                    Vincent Campbell
                                                    Sabrena Stewart
                                                    Neven Soliman
                                                    Gina Ross
                                                    Nii-Lantei Lamptey
                                                    Iantha Maness




Abbreviations

BIA            Business Impact Analysis
EPA            U.S. Environmental Protection Agency
FDCC           Federal Desktop Core Configurations
FISMA          Federal Information Security Management Act
GAO            U.S. Government Accountability Office
MOU            Memorandum of Understanding
NIST           National Institute of Standards and Technology
OEI            Office of Environmental Information
OIG            Office of Inspector General
OMB            Office of Management and Budget
POA&M          Plan of Action & Milestones
SP             Special Publication
US-CERT        U.S. Computer Emergency Readiness Team
USGCB          U.S. Government Configuration Baseline



Hotline                                        Suggestions for Audits or Evaluations
To report fraud, waste or abuse, contact       To make suggestions for audits or evaluations,
us through one of the following methods:       contact us through one of the following methods:

email:    OIG_Hotline@epa.gov                  email:    OIG_WEBCOMMENTS@epa.gov
phone:    1-888-546-8740                       phone:    1-202-566-2391
fax:      1-202-566-2599                       fax:      1-202-566-2599
online:   http://www.epa.gov/oig/hotline.htm   online:   http://www.epa.gov/oig/contact.html#Full_Info

write:    EPA Inspector General Hotline        write:    EPA Inspector General
          1200 Pennsylvania Avenue, NW                   1200 Pennsylvania Avenue, NW
          Mailcode 2431T                                 Mailcode 2410T
          Washington, DC 20460                           Washington, DC 20460
                        U.S. Environmental Protection Agency                                               14-P-0033
                                                                                                    November 26, 2013
                        Office of Inspector General


                        At a Glance
Why We Did This Review              Fiscal Year 2013 Federal Information Security
The U.S. Environmental              Management Act Report: Status of EPA’s
Protection Agency’s (EPA’s)         Computer Security Program
Office of Inspector General
(OIG) conducted this review to
assess the EPA’s compliance          What We Found
with the Federal Information
Security Management Act             The EPA has established an agencywide information         The EPA’s network
(FISMA). FISMA requires             security program that assesses the security state of      and data could be
Inspectors General to prepare       information systems that is consistent with FISMA         exploited without
an annual evaluation of their       requirements and applicable policy and guidelines for     processes to evaluate
                                    the following areas:                                      risks and timely
agencies’ information security
                                                                                              remediate
programs and practices.                                                                       vulnerabilities. Data
The Department of Homeland                 Continuous Monitoring Management
                                                                                              processed by EPA
Security issued reporting                  Identity and Access Management                    contractors could be
guidelines requesting                      Incident Response and Reporting                   at risk because
information on 11 information              Security Training                                 adequate controls may
system security practices within           Plan of Action and Milestones                     not be in place.
federal agencies.                          Remote Access Management
                                           Contingency Planning
This report addresses the                  Security Capital Planning
following EPA theme:
                                    However, the EPA should place more management emphasis on remediating
  Embracing EPA as a high          significant deficiencies found within the agency’s configuration management, risk
   performing organization.         management and contractor systems management practices. The agency should
                                    take steps to:

                                         Improve processes for timely remediation of scan result deviations.
                                         Address risks from an organizational, mission and business, and
                                          information system perspective.
                                         Obtain sufficient assurance that security controls for contractor systems
                                          are effectively implemented and comply with federal and organization
                                          guidelines.

                                    We briefed the agency on the results of our audit work and, where appropriate,
                                    made adjustments to address its concerns.


For further information,
contact our public affairs office
at (202) 566-2391.

The full report is at:
www.epa.gov/oig/reports/2014/
20131126-14-P-0033.pdf
                        UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                     WASHINGTON, D.C. 20460


                                                                                      THE INSPECTOR GENERAL




                                          November 26, 2013

MEMORANDUM

SUBJECT:      Fiscal Year 2013 Federal Information Security Management Act Report:
              Status of EPA’s Computer Security Program
              Report No. 14-P-0033

FROM:         Arthur A. Elkins Jr.

TO:           Gina McCarthy
              Administrator

Attached is the Office of Inspector General’s (OIG’s) Fiscal Year 2013 Federal Information Security
Management Act (FISMA) Reporting Template, as prescribed by the Office of Management and Budget
(OMB). We performed this review in accordance with generally accepted government auditing
standards. These standards require the team to plan and perform the review to obtain sufficient and
appropriate evidence to provide a reasonable basis for the findings and conclusions based on the
objectives of the review.

We believe the evidence obtained provides a reasonable basis for our findings and conclusions, and in
all material respects, meets the FISMA reporting requirements prescribed by OMB. In accordance with
OMB reporting instructions, we are forwarding this report to you for submission, along with the
agency’s required information, to the Director of OMB.

We briefed agency officials on the results of our audit work and, where appropriate, made an adjustment
in the Continuous Monitoring section to address their concern. The agency needs to make improvements
in the following programs: (1) Configuration Management, (2) Risk Management, and
(3) Contractor Systems.

We will post this report on our website at http://www.epa.gov/oig.

If you or your staff have any questions regarding this report, please contact Richard Eyermann,
Acting Assistant Inspector General for Audit, at 202-566-0565 or eyermann.richard@epa.gov; or
Rudolph M. Brevard, Director for Information Resources Management Audits, at 202-566-0893 or
brevard.rudy@epa.gov.
Inspector General                                   2013
                                                   Annual FISMA
                                                      Report
Section Report




                 Environmental Protection Agency
Section 1: Continuous Monitoring Management
1.1      Has the organization established an enterprise-wide continuous monitoring program that assesses the security state of information systems
         that is consistent with FISMA requirements, OMB policy, and applicable NIST guidelines? Besides the improvement opportunities that may
         have been identified by the OIG, does the program include the following attributes?
          Yes
          1.1.1   Documented policies and procedures for continuous monitoring (NIST SP 800-53: CA-7).
                  Yes
          1.1.2   Documented strategy and plans for continuous monitoring (NIST SP 800-37 Rev 1, Appendix G).
                  Yes
          1.1.3   Ongoing assessments of security controls (system-specific, hybrid, and common) that have been performed based on the approved
                  continuous monitoring plans (NIST SP 800-53, NIST 800-53A).
                  Yes
          1.1.4   Provides authorizing officials and other key system officials with security status reports covering updates to security plans and security
                  assessment reports, as well as a common and consistent POA&M program that is updated with the frequency defined in the strategy
                  and/or plans (NIST SP 800-53, 800-53A).
                  Yes
1.2      Please provide any additional information on the effectiveness of the organization’s Continuous Monitoring Management Program that was
         not noted in the questions above.
          N/A

Section 2: Configuration Management
2.1      Has the organization established a security configuration management program that is consistent with FISMA requirements, OMB policy, and
         applicable NIST guidelines? Besides the improvement opportunities that may have been identified by the OIG, does the program include the
         following attributes?
          No
                  Comments:      The OIG issued "Briefing Report: Improvements Needed in EPA's Information Security Program," Report No.13-P-0257, dated
                                 May 13, 2013, which documented that EPA did not have a process for timely remediation of configuration compliance scans; fully
                                 implement Federal Desktop Core Configurations/U.S. Government Configuration Baseline (FDCC/USGCB) secure configuration
                                 settings; and have a specified, documented timeline to correct deviations from baseline configurations.



OIG Report - Annual 2013                                                                                                                                          Page 1 of 14
Section 2: Configuration Management
          2.1.1    Documented policies and procedures for configuration management.
                   Yes
          2.1.2    Defined standard baseline configurations.
                   Yes
          2.1.3    Assessments of compliance with baseline configurations.
                   No
          2.1.4    Process for timely, as specified in organization policy or standards, remediation of scan result deviations.
                   No
          2.1.5    For Windows-based components, USGCB secure configuration settings are fully implemented, and any deviations from USGCB
                   baseline settings are fully documented.
                   No
          2.1.6    Documented proposed or actual changes to hardware and software configurations.
                   Yes
          2.1.7    Process for timely and secure installation of software patches.
                   No
          2.1.8    Software assessing (scanning) capabilities are fully implemented (NIST SP 800-53: RA-5, SI-2).
                   Yes
          2.1.9    Configuration-related vulnerabilities, including scan findings, have been remediated in a timely manner, as specified in organization
                   policy or standards. (NIST SP 800-53: CM-4, CM-6, RA-5, SI-2)
                   No
          2.1.10   Patch management process is fully developed, as specified in organization policy or standards. (NIST SP 800-53: CM-3, SI-2).
                   No
2.2      Please provide any additional information on the effectiveness of the organization’s Configuration Management Program that was not noted in
         the questions above.
          N/A

Section 3: Identity and Access Management


OIG Report - Annual 2013                                                                                                                                   Page 2 of 14
Section 3: Identity and Access Management
3.1      Has the organization established an identity and access management program that is consistent with FISMA requirements, OMB policy, and
         applicable NIST guidelines and which identifies users and network devices? Besides the improvement opportunities that have been identified
         by the OIG, does the program include the following attributes?
          Yes
          3.1.1   Documented policies and procedures for account and identity management (NIST SP 800-53: AC-1).
                  Yes
          3.1.2   Identifies all users, including Federal employees, contractors, and others who access organization systems (NIST SP 800-53, AC-2).
                  No
          3.1.3   Identifies when special access requirements (e.g., multi-factor authentication) are necessary.
                  Yes
          3.1.4   If multi-factor authentication is in use, it is linked to the organization's PIV program where appropriate (NIST SP 800-53, IA-2).
                  Yes
          3.1.5   Organization has planned for implementation of PIV for logical access in accordance with government policies (HSPD 12, FIPS 201,
                  OMB M-05-24, OMB M-07-06, OMB M-08-01, OMB M-11-11).
                  Yes
          3.1.6   Organization has adequately planned for implementation of PIV for physical access in accordance with government policies (HSPD 12,
                  FIPS 201, OMB M-05-24, OMB M-07-06, OMB M-08-01, OMB M-11-11).
                  Yes
          3.1.7   Ensures that the users are granted access based on needs and separation-of-duties principles.
                  Yes
          3.1.8   Identifies devices with IP addresses that are attached to the network and distinguishes these devices from users (For example: IP
                  phones, faxes, printers are examples of devices attached to the network that are distinguishable from desktops, laptops or servers that
                  have user accounts).
                  Yes




OIG Report - Annual 2013                                                                                                                                    Page 3 of 14
Section 3: Identity and Access Management
          3.1.9    Identifies all user and non-user accounts. (Refers to user accounts that are on a system. Data user accounts are created to pull generic
                   information from a database or a guest/anonymous account for generic login purposes. They are not associated with a single user or a
                   specific group of users.)
                   Yes
          3.1.10   Ensures that accounts are terminated or deactivated once access is no longer required.
                   No
          3.1.11   Identifies and controls use of shared accounts.
                   Yes
3.2      Please provide any additional information on the effectiveness of the organization’s Identity and Access Management Program that was not
         noted in the questions above.
          N/A

Section 4: Incident Response and Reporting
4.1      Has the organization established an incident response and reporting program that is consistent with FISMA requirements, OMB policy, and
         applicable NIST guidelines? Besides the improvement opportunities that may have been identified by the OIG, does the program include the
         following attributes?
          Yes
          4.1.1    Documented policies and procedures for detecting, responding to, and reporting incidents (NIST SP 800-53: IR-1).
                   Yes
          4.1.2    Comprehensive analysis, validation and documentation of incidents.
                   Yes
          4.1.3    When applicable, reports to US-CERT within established timeframes (NIST SP 800-53, 800-61, and OMB M-07-16, M-06-19).
                   Yes
          4.1.4    When applicable, reports to law enforcement within established timeframes (NIST SP 800-61).
                   No




OIG Report - Annual 2013                                                                                                                                      Page 4 of 14
Section 4: Incident Response and Reporting
          4.1.5   Responds to and resolves incidents in a timely manner, as specified in organization policy or standards, to minimize further damage
                  (NIST SP 800-53, 800-61, and OMB M-07-16, M-06-19).
                  Yes
          4.1.6   Is capable of tracking and managing risks in a virtual/cloud environment, if applicable.
                  Yes
          4.1.7   Is capable of correlating incidents.
                  Yes
          4.1.8   Has sufficient incident monitoring and detection coverage in accordance with government policies (NIST SP 800-53, 800-61; OMB
                  M-07-16, M-06-19).
                  Yes
4.2      Please provide any additional information on the effectiveness of the organization’s Incident Management Program that was not noted in the
         questions above.
          N/A

Section 5: Risk Management
5.1      Has the organization established a risk management program that is consistent with FISMA requirements, OMB policy, and applicable NIST
         guidelines? Besides the improvement opportunities that may have been identified by the OIG, does the program include the following
         attributes?
          No
                  Comments:       The OIG issued “Briefing Report: Improvements Needed in EPA’s Information Security Program,” Report No.13-P-0257, dated
                                  May 13, 2013, which documented that EPA’s risk management program’s Risk Executive Group needs to define the core mission
                                  and business processes for the organization (including any derivative or related mission and business processes carried out by
                                  subordinate organizations).
          5.1.1   Documented policies and procedures for risk management, including descriptions of the roles and responsibilities of participants in this
                  process.
                  Yes




OIG Report - Annual 2013                                                                                                                                           Page 5 of 14
Section 5: Risk Management
          5.1.2    Addresses risk from an organization perspective with the development of a comprehensive governance structure and organization-wide
                   risk management strategy as described in NIST SP 800-37, Rev.1.
                   No
          5.1.3    Addresses risk from a mission and business process perspective and is guided by the risk decisions from an organizational
                   perspective, as described in NIST SP 800-37, Rev. 1.
                   No
          5.1.4    Addresses risk from an information system perspective and is guided by the risk decisions from an organizational perspective and the
                   mission and business perspective, as described in NIST SP 800-37, Rev. 1.
                   No
          5.1.5    Has an up-to-date system inventory.
                   No
          5.1.6    Categorizes information systems in accordance with government policies.
                   Yes
          5.1.7    Selects an appropriately tailored set of baseline security controls.
                   Yes
          5.1.8    Implements the tailored set of baseline security controls and describes how the controls are employed within the information system
                   and its environment of operation.
                   Yes
          5.1.9    Assesses the security controls using appropriate assessment procedures to determine the extent to which the controls are
                   implemented correctly, operating as intended, and producing the desired outcome with respect to meeting the security requirements for
                   the system.
                   Yes
          5.1.10   Authorizes information system operation based on a determination of the risk to organizational operations and assets, individuals,
                   other organizations, and the Nation resulting from the operation of the information system and the decision that this risk is acceptable.
                   Yes




OIG Report - Annual 2013                                                                                                                                       Page 6 of 14
Section 5: Risk Management
          5.1.11   Ensures information security controls are monitored on an ongoing basis including assessing control effectiveness, documenting
                   changes to the system or its environment of operation, conducting security impact analyses of the associated changes, and reporting
                   the security state of the system to designated organizational officials.
                   Yes
          5.1.12   Information-system-specific risks (tactical), mission/business-specific risks, and organizational-level (strategic) risks are
                   communicated to appropriate levels of the organization.
                   Yes
          5.1.13   Senior officials are briefed on threat activity on a regular basis by appropriate personnel (e.g., CISO).
                   Yes
          5.1.14   Prescribes the active involvement of information system owners and common control providers, chief information officers, senior
                   information security officers, authorizing officials, and other roles as applicable in the ongoing management of information
                   system-related security risks.
                   Yes
          5.1.15   Security authorization package contains system security plan, security assessment report, and POA&M in accordance with
                   government policies. (NIST SP 800-18, 800-37).
                   Yes
          5.1.16   Security authorization package contains accreditation boundaries, defined in accordance with government policies, for organization
                   information systems.
                   Yes
5.2      Please provide any additional information on the effectiveness of the organization’s Risk Management Program that was not noted in the
         questions above.
          N/A

Section 6: Security Training
6.1      Has the organization established a security training program that is consistent with FISMA requirements, OMB policy, and applicable NIST
         guidelines? Besides the improvement opportunities that may have been identified by the OIG, does the program include the following
         attributes?
          Yes



OIG Report - Annual 2013                                                                                                                                 Page 7 of 14
Section 6: Security Training
          6.1.1   Documented policies and procedures for security awareness training (NIST SP 800-53: AT-1).
                  Yes
          6.1.2   Documented policies and procedures for specialized training for users with significant information security responsibilities.
                  Yes
          6.1.3   Security training content based on the organization and roles, as specified in organization policy or standards.
                  Yes
          6.1.4   Identification and tracking of the status of security awareness training for all personnel (including employees, contractors, and other
                  organization users) with access privileges that require security awareness training.
                  Yes
          6.1.5   Identification and tracking of the status of specialized training for all personnel (including employees, contractors, and other
                  organization users) with significant information security responsibilities that require specialized training.
                  Yes
          6.1.6   Training material for security awareness training contains appropriate content for the organization (NIST SP 800-50, 800-53).
                  Yes
6.2      Please provide any additional information on the effectiveness of the organization’s Security Training Program that was not noted in the
         questions above.
          N/A

Section 7: Plan Of Action & Milestones (POA&M)
7.1      Has the organization established a POA&M program that is consistent with FISMA requirements, OMB policy, and applicable NIST
         guidelines and tracks and monitors known information security weaknesses? Besides the improvement opportunities that may have been
         identified by the OIG, does the program include the following attributes?
          Yes
          7.1.1   Documented policies and procedures for managing IT security weaknesses discovered during security control assessments and that
                  require remediation.
                  Yes




OIG Report - Annual 2013                                                                                                                                    Page 8 of 14
Section 7: Plan Of Action & Milestones (POA&M)
          7.1.2   Tracks, prioritizes and remediates weaknesses.
                  Yes
          7.1.3   Ensures remediation plans are effective for correcting weaknesses.
                  No
          7.1.4   Establishes and adheres to milestone remediation dates.
                  Yes
          7.1.5   Ensures resources and ownership are provided for correcting weaknesses.
                  Yes
          7.1.6   POA&Ms include security weaknesses discovered during assessments of security controls and that require remediation (do not need
                  to include security weakness due to a risk-based decision to not implement a security control) (OMB M-04-25).
                  No
          7.1.7   Costs associated with remediating weaknesses are identified (NIST SP 800-53, Rev. 3, Control PM-3 and OMB M-04-25).
                  Yes
          7.1.8   Program officials report progress on remediation to CIO on a regular basis, at least quarterly, and the CIO centrally tracks, maintains,
                  and independently reviews/validates the POA&M activities at least quarterly (NIST SP 800-53, Rev. 3, Control CA-5; OMB
                  M-04-25).
                  Yes
7.2      Please provide any additional information on the effectiveness of the organization’s POA&M Program that was not noted in the questions
         above.
          The OIG issued "Briefing Report: Improvements Needed in EPA's Information Security Program," Report No. 13-P-0257, dated May 13,
          2013, which documented the EPA does not have POA&M processes that provide assurance that identified weaknesses have been corrected.

Section 8: Remote Access Management
8.1      Has the organization established a remote access program that is consistent with FISMA requirements, OMB policy, and applicable NIST
         guidelines? Besides the improvement opportunities that may have been identified by the OIG, does the program include the following
         attributes?
          Yes



OIG Report - Annual 2013                                                                                                                                     Page 9 of 14
Section 8: Remote Access Management
          8.1.1    Documented policies and procedures for authorizing, monitoring, and controlling all methods of remote access (NIST SP 800-53: AC-1,
                   AC-17).
                   Yes
          8.1.2    Protects against unauthorized connections or subversion of authorized connections.
                   Yes
          8.1.3    Users are uniquely identified and authenticated for all access (NIST SP 800-46, Section 4.2, Section 5.1).
                   Yes
          8.1.4    Telecommuting policy is fully developed (NIST SP 800-46, Section 5.1).
                   Yes
          8.1.5    If applicable, multi-factor authentication is required for remote access (NIST SP 800-46, Section 2.2, Section 3.3).
                   Yes
          8.1.6    Authentication mechanisms meet NIST Special Publication 800-63 guidance on remote electronic authentication, including strength
                   mechanisms.
                   Yes
          8.1.7    Defines and implements encryption requirements for information transmitted across public networks.
                   Yes
          8.1.8    Remote access sessions, in accordance with OMB M-07-16, are timed-out after 30 minutes of inactivity, after which re-authentication
                   is required.
                   Yes
          8.1.9    Lost or stolen devices are disabled and appropriately reported (NIST SP 800-46, Section 4.3, US-CERT Incident Reporting
                   Guidelines).
                   Yes
          8.1.10   Remote access rules of behavior are adequate in accordance with government policies (NIST SP 800-53, PL-4).
                   Yes
          8.1.11   Remote access user agreements are adequate in accordance with government policies (NIST SP 800-46, Section 5.1, NIST SP 800-53,
                   PS-6).
                   Yes


OIG Report - Annual 2013                                                                                                                                 Page 10 of 14
Section 8: Remote Access Management
8.2      Please provide any additional information on the effectiveness of the organization’s Remote Access Management that was not noted in the
         questions above.
          N/A
8.3      Does the organization have a policy to detect and remove unauthorized (rogue) connections?
          Yes

Section 9: Contingency Planning
9.1      Has the organization established an enterprise-wide business continuity/disaster recovery program that is consistent with FISMA
         requirements, OMB policy, and applicable NIST guidelines? Besides the improvement opportunities that may have been identified by the
         OIG, does the program include the following attributes?
          Yes
          9.1.1   Documented business continuity and disaster recovery policy providing the authority and guidance necessary to reduce the impact of a
                  disruptive event or disaster (NIST SP 800-53: CP-1).
                  Yes
          9.1.2   The organization has incorporated the results of its system’s Business Impact Analysis (BIA) into the analysis and strategy
                  development efforts for the organization’s Continuity of Operations Plan (COOP), Business Continuity Plan (BCP), and Disaster
                  Recovery Plan (DRP) (NIST SP 800-34).
                  No
          9.1.3   Development and documentation of division, component, and IT infrastructure recovery strategies, plans and procedures (NIST SP
                  800-34).
                  Yes
          9.1.4   Testing of system specific contingency plans.
                  Yes
          9.1.5   The documented BCP and DRP are in place and can be implemented when necessary (FCD1, NIST SP 800-34).
                  Yes
          9.1.6   Development of test, training, and exercise (TT&E) programs (FCD1, NIST SP 800-34, NIST SP 800-53).
                  Yes



OIG Report - Annual 2013                                                                                                                                 Page 11 of 14
Section 9: Contingency Planning
          9.1.7    Testing or exercising of BCP and DRP to determine effectiveness and to maintain current plans.
                   Yes
          9.1.8    After-action report that addresses issues identified during contingency/disaster recovery exercises (FCD1, NIST SP 800-34).
                   Yes
          9.1.9    Systems that have alternate processing sites (FCD1, NIST SP 800-34, NIST SP 800-53).
                   Yes
          9.1.10   Alternate processing sites are not subject to the same risks as primary sites (FCD1, NIST SP 800-34, NIST SP 800-53).
                   Yes
          9.1.11   Backups of information that are performed in a timely manner (FCD1, NIST SP 800-34, NIST SP 800-53).
                   Yes
          9.1.12   Contingency planning that considers supply chain threats.
                   No
9.2      Please provide any additional information on the effectiveness of the organization’s Contingency Planning Program that was not noted in the
         questions above.
          N/A

Section 10: Contractor Systems
10.1     Has the organization established a program to oversee systems operated on its behalf by contractors or other entities, including organization
         systems and services residing in the cloud external to the organization? Besides the improvement opportunities that may have been identified
         by the OIG, does the program includes the following attributes?
          No
                   Comments:      EPA did not complete an assessment of the security controls for three of the five systems we reviewed.
          10.1.1   Documented policies and procedures for information security oversight of systems operated on the organization’s behalf by
                   contractors or other entities, including organization systems and services residing in a public cloud.
                   Yes




OIG Report - Annual 2013                                                                                                                                 Page 12 of 14
Section 10: Contractor Systems
          10.1.2   The organization obtains sufficient assurance that security controls of such systems and services are effectively implemented and
                   comply with Federal and organization guidelines (NIST SP 800-53: CA-2).
                   No
          10.1.3   A complete inventory of systems operated on the organization’s behalf by contractors or other entities, including organization systems
                   and services residing in a public cloud.
                   No
          10.1.4   The inventory identifies interfaces between these systems and organization-operated systems (NIST SP 800-53: PM-5).
                   No
          10.1.5   The organization requires appropriate agreements (e.g., MOUs, Interconnection Security Agreements, contracts, etc.) for interfaces
                   between these systems and those that it owns and operates.
                   No
          10.1.6   The inventory of contractor systems is updated at least annually.
                   No
          10.1.7   Systems that are owned or operated by contractors or entities, including organization systems and services residing in a public cloud,
                   are compliant with FISMA requirements, OMB policy, and applicable NIST guidelines.
                   No
10.2     Please provide any additional information on the effectiveness of the organization’s Contractor Systems Program that was not noted in the
         questions above.
          N/A

Section 11: Security Capital Planning
11.1     Has the organization established a security capital planning and investment program for information security? Besides the improvement
         opportunities that may have been identified by the OIG, does the program include the following attributes?
          Yes
          11.1.1   Documented policies and procedures to address information security in the capital planning and investment control (CPIC) process.
                   Yes




OIG Report - Annual 2013                                                                                                                                    Page 13 of 14
Section 11: Security Capital Planning
          11.1.2   Includes information security requirements as part of the capital planning and investment process.
                   Yes
          11.1.3   Establishes a discrete line item for information security in organizational programming and documentation (NIST SP 800-53: SA-2).
                   Yes
          11.1.4   Employs a business case/Exhibit 300/Exhibit 53 to record the information security resources required (NIST SP 800-53: PM-3).
                   Yes
          11.1.5   Ensures that information security resources are available for expenditure as planned.
                   Yes
11.2     Please provide any additional information on the effectiveness of the organization’s Security Capital Planning Program that was not noted in
         the questions above.
          N/A




OIG Report - Annual 2013                                                                                                                                Page 14 of 14
                                                                                Appendix A

                                    Distribution
Office of the Administrator
Assistant Administrator for Environmental Information and Chief Information Officer
Agency Follow-Up Official (the CFO)
Agency Follow-Up Coordinator
General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for External Affairs and Environmental Information
Deputy Assistant Administrator for Environmental Information
Director, Office of Technology Operations and Planning, Office of Environmental Information
Senior Agency Information Security Officer, Office of Environmental Information
Director, Technology and Information Security Staff, Office of Environmental Information
Audit Follow-Up Coordinator, Office of Environmental Information
